              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Utility System Leases at the East
Tennessee Technology Park




DOE/IG-0609                                 June 2003
                               Department of Energy
                                   Washington, DC 20585

                                    June 25, 2003




FROM:
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Utility System Leases at
                          the East Tennessee Technology Park"

BACKGROUND

In 1998, the Department of Energy's Oak Ridge Operations Office entered into a series of
utility leases with the Community Reuse Organization of East Tennessee (CROET).
Under the lease terms, CROET was to manage a variety of Government-owned utility
systems - including steam, compressed air, nitrogen, water, and natural gas - at the
Department's East Tennessee Technology Park (ETTP). By agreement, the Department
leased its utility systems to CROET at no charge. In turn, CROET was to contract with a
third party with utilities expertise to operate and maintain the utility systems for the
Department.

Department officials believed that, using this approach, CROET could operate the
systems, improve site infrastructure, and sell the utilities back to the Department, as well
as to other ETTP tenants, at significant savings. The Department's agreement with
CROET stated that the Department would realize annual savings of 15 percent in the first
year, 20 percent in the second year, and 25 percent in the following years for the services
provided, compared to the Department's benchmark budget. Further, the agreement
stated that the Department would reinvest a portion of the savings in the rehabilitation of
the systems and facilities. The objective of the audit was to determine whether the utility
system leases at ETTP have been managed to improve site infrastructure and reduce costs
to the Department.

RESULTS OF AUDIT

The audit disclosed that the Department's goals were not being achieved. Specifically,
the utility leases:

   0   Were not structured so as to create incentives for reducing cost and improving
       operating efficiency. Specifically, they allowed the contractor to be reimbursed
       for various markups and budget overruns;




                                 @     Pnnted wrlh soy ink on recycled paper
                                             2

    0   Did not ensure that all hnds the Department paid for infrastructure repairs and
        rehabilitation were used for that purpose rather than being deposited in an interest
        bearing bank account or otherwise used; and,

    0   Did not adequately protect the Government's interests with respect to price
        adjustments and accountability over certain personal property.

We further noted that the Department had not obtained competitive bids for management
of the utility systems and infrastructure. As a result of these conditions, the Department
now pays about the same as it did before the leases were agreed to, even though its utility
usage has declined over the same period. Based on our review, we questioned $6.9
million in lease costs, including costs for commodity markups, improperly used repair
and rehabilitation funds, interest on unused funds and tenant bad debts.

The Office of Inspector General recognizes the important part that CROET plays in
representing the interests of the East Tennessee region as the Department's role in the
local economy changes. At the same time, it is incumbent on the Department, in our
judgment, to ensure that the interests of all taxpayers are protected when entering into
agreements with community reuse organizations. We discussed similar issues in our
recent report on Transfer of Excess Personal Property from the Nevada Test Site to the
Community Reuse Organization (DOE/IG-0589, March 2003).

MANAGEMENT REACTION

In written comments included as Appendix 3, the Manager, Oak Ridge Operations Office
generally concurred with the recommendations. However, the Manager expressed
concerns about the report's conclusions and characterizations, particularly in regard to our
analysis of utility cost trends at ETTP. That analysis, management's concerns, and our
responses are incorporated in the body of the report.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
UTILITY SYSTEM LEASES AT THE EAST TENNESSEE
TECHNOLOGY PARK

TABLE OF
CONTENTS



                Utilitv Costs

                Details of Finding.......................................................................     1

                Recommendations ...................................................................          .7

                Comments .................................................................................   8


                Appendices

                1 . Prior Audit Reports................................................................      9

                2. Objective, Scope, and Methodology ...................................                     11

                3. Management Comments.....................................................                  13
UTILITY COSTS

Background          In the early 1990s, the Department of Energy (Department) began to
                    transition some of its sites and facilities from missions in support of
                    nuclear weapons production to environmental cleanup. At about the
                    same time, legislation was enacted establishing regional community
                    reuse organizations throughout the country. These organizations were
                    established to assist local communities with the transition from
                    economic dependence on the Federal government to reliance on private
                    industry. The Community Reuse Organization of East Tennessee
                    (CROET) was established for this purpose.

                    On March 20, 1998, the Department leased its major utility systems,
                    with the exception of electricity, to CROET at no cost. Eight 10-year
                    leases were signed which covered East Tennessee Technology Park's
                    (ETTP) steam, compressed air, nitrogen, potable water generation and
                    distribution systems; wastewater collection and treatment systems;
                    storm drain collection system; natural gas distribution system; and,
                    recirculating cooling water and fire protection water distribution
                    system. On the same day, CROET entered into a fixed-price contract
                    with a third-party contractor for the management, operation,
                    maintenance, and rehabilitation of ETTP utility systems. The
                    Department, on April 23 and June 26, 1998, signed two additional
                    leases with CROET for roads and grounds maintenance.

                    The 10 leases originally included personal property with an acquisition
                    cost of about $2.5 million' to support utility systems and facilities.
                    However, the Department modified the lease agreements in July 1998
                    and transferred title for $1.9 million' of this property to CROET.
                    Among the transfers were automobiles, utility vehicles, cranes, lawn
                    maintenance equipment, and computer and audiohide0 equipment.

Leases with CROET   The audit disclosed that the utility leases were inefficient and costly to
                    the Department because they:

                        0   Were structured to create disincentives for reducing utility cost
                            and improving operating efficiency;

                        0   Did not ensure that all funds the Department paid for
                            infiastructure repairs and rehabilitation were used for that
                            purpose; and,



                    'Acquisition cost was used because fair market value had not been determined. Fair
                    market value would likely have been considerably less than acquisition cost.
             0   Did not adequately protect the Government's interests with
                 respect to price adjustments and the accountability for personal
                 property.

                                    Operating Efficiency

         Although the Department anticipated that the lease arrangements would
         reduce utility costs, the agreements themselves required the Department
         to pay commodity markups that created disincentives for reducing cost
         and improving operating efficiency. Each year, a five-member utility
         committee establishes rates that will be charged to the Department for
         utility services. Included in these rates are the costs of commodities
         such as electricity, natural gas, and fuel oil used by the third-party
         contractor to provide the utility services, plus up to 18 percent in
         markups for profit and contributions to the Major Repairs and
         Rehabilitation Fund. If CROET exceeds its budget for commodities, the
         Department reimburses CROET the difference, along with the applicable
         markup. Thus, "profits" increase as consumption increases.

         Also, with respect to electricity and natural gas, the third-party
         contractor acquired the commodities from the Department and consumed
         them to provide the ETTP utility services. CROET subsequently
         charged the Department for the cost of the commodities plus the
         additional markup. Thus, the Department paid a markup of 18 percent
         for electricity and natural gas that it had provided.

                                    Infrastructure Issues

         As part of its monthly utility payments to CROET, the Department also
         pays into a Major Repairs and Rehabilitation Fund to make
         improvements to the existing utility and infrastructure facilities at ETTP.
         Since 1998, the Department has invested $4.9 million in the fund;
         however, only about $4 11,000 has, thus far, been spent to improve
         existing utility and infrastructure facilities. As of August 3 1, 2002,
         CROET had accumulated most of the rest of the infrastructure finds -
         about $3.2 million - in an investment account. Moreover, CROET had
         earned $171,000 in interest revenue on the unspent balance. We noted
         that the lease agreements do not contain specific requirements as to how
         the funds are to be used, or whether unspent finds will be returned to the
         Department. Based on current rates, the Department could contribute an
         additional $8 million to the fund over the remaining life of the leases
         without adequate assurance that needed infrastructure repairs and
         rehabilitation will occur.


Page 2                                                          Details of Finding
         In addition, some of the funds that were expended from the Major
         Repairs and Rehabilitation Fund were used for purposes other than
         improving existing utility and infrastructure facilities at ETTP. For
         example, CROET spent about $505,000 to replace mowers, tractors,
         and vehicles transferred from the Department to CROET at the
         beginning of the lease. Further, CROET plans to spend an additional
         $795,000 from the fund to replace mowers, tractors, and vehicles at
         ETTP in the next few years.

                                            Protections

         With respect to the administration of the leases, we found that adequate
         protections were not in place. For example, the Department paid for
         adjustments to monthly utility invoices without adequate support.
         Invoices from CROET consist of the monthly ETTP utility costs,
         adjusted for utility costs billed to CROET's tenants at the site. Several
         invoices included a billing adjustment that increased the Department's
         cost by as much as $66,000. Most adjustments were described as
         "billing adjustments," and no support was provided to substantiate or
         validate the adjustment amount. The Department's environmental
         management contractor at ETTP approved the invoices for payment
         without validating the adjustments.

         Further, the Department did not hold CROET accountable for all
         personal property items used in utility operations, According to the
         lease terms, any personal property item that was leased without a
         transfer of title to CROET in July 1998 would revert to the control and
         custody of the Department. However, we identified 24 items with an
         acquisition cost of $620,000' that were not part of the title transfer, and
         the Department and CROET officials were, initially, unaware of the
         location and condition of the items. A subsequent inspection of the
         24 items resulted in 12 items with an acquisition cost of $169,000' that
         could not be located or verified. The items include utility equipment,
         vehicles, and lawnmowers.

         Subsequent to our fieldwork, the Department informed us that 4 of the
         12 missing items have been located, and that if CROET is unable to
         return the remaining 8 items, it will reimburse the Department for the
         replacement cost of the items.



         1
          Acquisition cost was used because fair market value had not been determined. Fair
         market value would likely have been considerably less than acquisition cost.

Page 3                                                                Details of Finding
Competition and   The Department entered into the agreement with CROET without
Safeguards        requiring CROET to obtain competitive bids from potential third-
                  party utility service providers. The Federal Acquisition Regulation
                  generally requires contracting officers to seek competition to secure
                  the most advantageous contract for the Government and give all
                  interested parties an opportunity to compete. Despite this
                  requirement, the Department entered into sole-source negotiations
                  with CROET and the third-party contractor in May 1997 for the
                  management and operation of Government-owned utility systems at
                  ETTP. In February 1998, CROET published an announcement of its
                  intentions to enter into a service agreement with the third-party, and
                  requested that other parties, if interested, submit a proposal. By this
                  time, however, the Department, CROET, and the third-party had
                  already entered into a formal agreement. Thus, the opportunity for
                  other companies to compete was virtually non-existent.

                  Also, the Department did not include basic safeguards in the lease
                  agreements to ensure fair and reasonable prices for utility services.
                  The agreements state that the Department and CROET will establish
                  a utility committee to manage CROET's contract with the third-party
                  and set annual utility rates for the Department and commercial
                  tenants at ETTP based on a benchmark budget. The utility
                  committee is comprised of five voting members, including two from
                  the Department.

                  The Department's members on the utility committee did not always
                  act in the Department's best interest. For example, in September
                  2002, the utility committee approved the addition of "uncollectible
                  accounts'' and "CROET administration" fees into the price the
                  Department pays for utilities, despite the previous objections of the
                  Department's lease representative. The representative's position was
                  that the Department could not legally fund tenants' bad debts2, and
                  CROET's administration fees were already included in the utility
                  rates. In spite of the lease representative's position, a senior
                  Department official offered a motion in favor of including the
                  uncollectible and administrative fees in the rate increase. The
                  motion passed unanimously and the Department has since paid for
                  uncollectible tenant utilities and the additional amount for CROET
                  administration fees.


                  * This position is supported by Federal Acquisition Regulation 3 1.703 and Ofice
                  of Management and Budget Circular No. A-122 which state that bad debts,
                  including losses (whether actual or estimated) arising from uncollectible accounts
                  and other claims, related collections costs, and related legal costs, are unallowable.
Costs of Utilities   We found that utility costs were decreasing at the ETTP before the
                     Department entered into the leasing agreements with CROET. The
                     cost of major utilities decreased from about $12 million in 1993 and
                     1994 to about $9.4 million in 1995 and 1996, then dropped to $6.9
                     million in 1997, the year before the leases began. Factors affecting
                     costs at that time included improved management practices by the
                     previous management and operating contractor, staffing reductions,
                     and completion of capital improvements and repairs totaling about
                     $4.3 million in 1996. Since entering into the leases, the annual cost
                     of major utilities increased from about $8.3 million during the first
                     year of the leases, to about $8.6 million during the fourth year. We
                     identified two primary contributors to the cost increases: CROET's
                     commodity markups, which began during the second year of the
                     leases, and CROET's administration fees, which were added during
                     the fourth year.

                     Management disagreed with this analysis, stating that utility costs
                     have been significantly reduced since 1993 and have stabilized at
                     about $8 million per year, or $9 million per year when capital
                     improvements are included. In management's view, the analysis
                     failed to consider normal increases in labor and utility commodities
                     costs, which are allowed under the lease agreements. Also,
                     management believed that the analysis should have included $9.5
                     million spent for capital improvements over the 5.5 years that
                     preceded the lease. Management asserted that by using the lease
                     agreements, the overall cost of utilities was reduced from an average
                     of $10.5 million before the lease to about $8.6 million in the fourth
                     year of the lease.

                     The Office of Inspector General recognizes that ETTP's utility costs
                     were significantly reduced after 1993; however, the reductions were
                     made by the previous management and operating contractor before
                     the Department entered into the leases. Also, while rising labor and
                     commodity rates may have contributed to cost increases, CROET
                     agreed to reduce overall utility costs by at least 25 percent over 3
                     years. In this regard, benchmark budgets were not adjusted for labor
                     and commodity cost increases. Further, expenditures for capital
                     improvements were not included in our analysis of annual operating
                     costs because that would have distorted the true cost of utility




Page 5                                                                 Details of Finding
         operations. The Department made significant improvements in major
         utility systems before the leases which, presumably, resulted in more
         efficient utility operations for the third-party contractor.

         Based on our analysis of costs incurred under the agreement, we
         concluded that the Department has paid significantly more than it
         needed to for utilities since the leases have been in effect. In total,
         we have questioned $6.9 million, as illustrated in the schedule below.

                            Schedule of Questioned Costs


          Commodity Markups                                    $1,623,787
          Major Repairs and Rehabilitation Fund                 4,505,12 1
          Interest on Fund                                        171,023
          Billing Adjustments                                     184,422
          Tenant Bad Debt                                         138,778
          CROET Administration Fees                               277,924
             TOTAL                                             $6.901,055


         Management indicated that it does not consider the cost of
         commodity markups, the Major Repair and Rehabilitation Fund,
         interest on the fimd, and CROET administration fees to be
         questionable. To the contrary, these costs are considered reasonable
         and necessary. Also, management asserted that the Department
         would have incurred the cost of commodity markups regardless of
         whether CROET or a management and integration contractor
         provided utility services to ETTP.

         Based on our audit, however, the Office of Inspector General
         concluded that CROET's billing practices for commodity markups,
         the Major Repairs and Rehabilitation Fund, and CROET
         administration fees could be considered a cost-plus-a-percentage-o f-
         cost pricing arrangement, which is prohibited by Federal and
         Departmental acquisition regulations. Under this type of pricing
         arrangement, the contractor's profits increase in direct proportion to
         the amount of funds expended by the customer for contract
         performance. Thus, the contractor receives greater profits by
         incurring additional costs.




Page 6                                                      Details of Finding
                                                                                             --




                  It is important to note that the vast majority of h d s expended at the
                  ETTP site are appropriated for the purpose of remediating the
                  environmental impacts of the Department's historic missions at the
                  Oak Ridge Reservation. To the extent that these funds are expended
                  unnecessarily, the cleanup mission, that now includes an emphasis on
                  accelerated closure of the ETTP, can be negatively affected. While
                  the Office of Inspector General recognizes the role that CROET plays
                  in representing the interests of East Tennessee as ETTP missions
                  change, the Department should exercise care to ensure that cleanup
                  funds are spent as effectively as possible to the benefit of all Federal
                  taxpayers.

RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Operations Office:

                      1 . Perform a detailed analysis of the lease provisions questioned
                          in this report and restructure the lease agreements as
                          necessary to ensure that appropriate contracting and
                          accounting controls are in place to protect the Department's
                          interest;

                     2. Ensure that any future agreements for utility services are
                        subject to full competition;

                     3. Make a determination as to the allowability of questioned
                        costs in this report and recover funds as appropriate;

                     4. Cease automatic capital improvement payments to CROET
                         and approve future capital improvements on a case-by-case
                         basis, consistent with the ETTP Closure Plan;

                     5 . Obtain an audit of monthly invoices paid by the
                         environmental management contractor to CROET, and
                         reimbursed by the Department, and ensure that only
                         reasonable, allowable, and allocable costs are reimbursed by
                         the Department; and,

                     6. Inventory Government-owned property leased by CROET
                        and ensure all items are appropriately accounted for.




Page 7                                                              Recommendations
MANAGEMENT         Management generally concurred with the audit finding and
REACTION           recommendations and agreed to take corrective action. However,
                   management did not agree with the conclusion reached or the
                   methodology used to compare utility costs incurred before and after
                   the lease agreements at ETTP. Management clarified its written
                   comments on June 3,2003, stating that it plans to perform an
                   independent analysis of the lease provisions questioned in this report
                   and restructure the lease agreements as necessary to ensure that
                   appropriate controls are in place to protect the Department's interests.
                   Also, management plans to fully evaluate all costs questioned in this
                   report and make a final determination as to their allowability.
                   Management plans to complete these actions no later than
                   September 30,2003.

                   We have included management's formal reaction as Appendix 3.
                   Additionally, management's comments on the validity of the audit
                   analysis, along with our responses, have been incorporated into the
                   text of this report.

AUDITOR COMMENTS   We consider management's reaction, as clarified in subsequent
                   discussions, to be consistent with the intent of the audit
                   recommendations.




Page 8                                                                       Comments
Appendix 1
                                         PRIOR AUDIT REPORTS

             Transfer of Excess Personal Property from the Nevada Test Site to the Community Reuse
             Organization (DOEIIG-0589, March 11,2003). Property transfers by the Nevada Site
             Office (Site Office) to the local Community Reuse Organization (CRO) were not in the
             best interest of the taxpayers. Hundreds of pieces of equipment, including trucks, office
             machines, and trailers, were transferred to the CRO for $1 per transfer. Lab equipment
             was transferred to the CRO that was needed at another Department site, ultimately causing
             the Department to spend $2.5 million unnecessarily. Additionally, the Site Office sold a
             drill rig to the local CRO for $50,000 that is now being offered for sale by an out-of-state
             equipment broker for $3.9 million. The Office of Inspector General (OIG) found that, in
             most cases, the Site Office made little, if any, effort to determine the current market value
             of the property, nor did it ensure that the equipment would be used for purposes directly
             related to developing the economies of communities around the Nevada Test Site.

         0   Oak Ridge Operations Office Management of Personal Property (INS-L-02-01, January 3,
             2002). Government-owned personal property had been released, and in some cases, title
             had been transferred, to private entities that were on-site Departmental lessees and sub
             lessees, without documented radiological control reviews being performed. These private
             entities were leasing Department-owned facilities at the East Tennessee Technology Park
             (ETTP). The Oak Ridge Operations Office (ORO) had relied on lease restrictions and
             other administrative and physical restraints to prevent the inadvertent off-site release of
             the property. The OIG concluded that there might be increased safety risks for both off-
             site contamination and for private workers who are "co-located" with property formerly
             utilized by the Department at ETTP, if such property is not screened for radiological
             contamination before being turned over to lessees.

         0   Sale of Land at Oak Ridge (DOE/IG-0502, May 7,2001). The Department's sale of land
             in February 2001 to a private contractor was an inappropriate use of the special authorities
             granted under the Atomic Energy Act of 1954 (Act). The Act gives the Department
             authority to sell land in the performance of a programmatic fbnction without regard to
             standard Federal practices. The Department invoked the authority of the Act because it
             has broadly interpreted what it defines as a programmatic function under the Act. Further,
             the Department sought to facilitate the sale to the "preferred" purchaser. As a result, there
             was no assurance that the land was sold at fair market value and in the best interests of the
             Government.

             Audit of Sale of Land to an Oak Ridge Hospital (ER-L-99-01, November 25, 1998). The
             audit determined that O R 0 sold 3.5 acres of land and 2 buildings to a local hospital using
             the authority of the Act instead of following standard Federal practices. The audit
             questioned whether the authority granted by the Act should be used to avoid standard
             Federal practices when disposing of excess land at the Oak Ridge Reservation (Oak
             Ridge), and whether it was in the Government's best interest for O R 0 to use proceeds
             from the sale of Federal property to augment appropriations rather than deposit cash in the
             U.S. Treasury.
Page 9                                                                                  Prior Audit Reports
          Audit of the US.Department of Energy's Identification and Disposal of Nonessential
          Land (DOE/IG-0399, January 8,1997). The audit determined that the Department
          retained significant amounts of land, including about 16,000 acres at Oak Ridge, which
          were not essential to current and foreseeable mission requirements. Rather than dispose
          of the nonessential land at Oak Ridge, the Department retained ownership until local
          entities expressed an interest in acquiring specific parcels. The Department sometimes
          declared the parcels to be excess and sold the parcels to local entities at the appraised
          value using the authority granted by the Act. The audit concluded that the Department
          should exercise greater care in disposing of Government-owned land. Specifically, all
          interested parties should be given the opportunity to acquire excess land holdings.

          Audit of Economic Development Grants and a Cooperative Agreement with East
          Tennessee Not-For-Profit Organizations (ER-B-97-01, October 22, 1996). Funds
          awarded to the East Tennessee Economic Council (ETEC) were not used for their
          intended purposes. The Department considered certain types of costs to be allowable even
          though they were outside the grants' approved scopes of work, and Department reviews of
          ETEC's invoices did not reveal all items that should not have been billed or were billed in
          error. Also, the Department advanced more funds than needed by ETEC to establish a
          revolving loan fund and allowed ETEC to hold the interest earned on the advanced funds.
          This occurred because OR0 officials responsible for awarding and administering the
          grants were not familiar with Federal rules on cash advances and interest earned on cash
          advances.




Page 10                                                                            Prior Audit Reports
Appendix 2

OBJECTIVE     The objective of the audit was to determine whether the utility system
              leases at the East Tennessee Technology Park (ETTP) have been
              managed to improve site infrastructure and reduce costs to the
              Department of Energy (Department).

              The audit was performed from September 2002 to March 2003 at the
SCOPE
              ETTP at the Oak Ridge Reservation in Oak Ridge, Tennessee. The
              scope of the audit included the Department's utility system leases at
              ETTP and associated cost data from March 1998 through February
              2003.

METHODOLOGY   To accomplish the audit objective, we:

                  0   Examined the terms and conditions established in the
                      Memorandums of Understanding and Agreement among the
                      Department, the Community Reuse Organization of East
                      Tennessee (CROET) and the third-party contractor;

                  0   Analyzed the lease agreements related to utility services at
                      ETTP;

                  0   Reviewed Federal laws and regulations and Departmental
                      guidance concerning leases of equipment and facilities and
                      contracts for utility services;

                  0   Evaluated expenditures for utility services at ETTP;

                  0   Reviewed CROET's use of the Major Repair and Rehabilitation
                      Fund for reasonableness;

                  0   Reviewed the Department's method of purchasing commodities
                      from CROET and the third-party contractor to identify
                      unnecessary costs;

                 0    Evaluated the Department's leasing and transferring of property
                      to CROET; and,

                 0    Interviewed Department and contractor officials at Department
                      Headquarters, Oak Ridge Operations Office, and ETTP.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to


Page 11                                        Objective, Scope, and Methodology
          the extent necessary to satisfy the audit objective. Because our review
          was limited, it would not necessarily have disclosed all internal control
          deficiencies that may have existed at the time of our audit. Because
          only a limited amount of computer-processed data was used during the
          audit, we did not conduct a reliability assessment of computer-
          processed data.

          Finally, we assessed the Department's compliance with the Government
          Performance and Results Act of 1993. The Department established
          performance incentives with the environmental management contractor
          at ETTP to support Departmental reindustrialization efforts; however, it
          did not establish specific incentives for utilities. Additionally, we
          determined that the utility-related performance incentive that the
          Department placed in the CROET leases did not benefit the
          Department.

          Management officials waived the exit conference.




Page 12                                                             Methodology
Appendix 3


  United Statgs Government                                                                         Department of Energy
                                                                                                   -

  memorandum
                                                                                                      Oak Ridge Operations Office




   DATE:     I\.ldy 19, 2003
  REFLY TO
  ATTN OF:   AU-60:Cl~k

  SUBJECT:   OAK KIDGE OPEKA'I'IOSS MANAGEMENT KESPONSE TO DRAFT AIJDIT KEI'ORT,
             UTILITY SYSTEM LEASES AT THE EAST 'EXYESSEE TEClINOLOGY PARK
       TO    Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services. Office of
              Inspector General, IG-32, FORS


             We have reviewed the subject draft report and appreciate the opportunity to pro\ide commcnts prior to
             thc report becoming final. However. we still have serious concerns about the fachiat accuracy, the
             methodology of the financial analysis, and the objectivity of the rcpoi? and have provided the basis for
             our concerns in more dctaii as an attachment to this memorandum.

             It IS important to recognize that the purpose of the cntirc Reindustrialization effort was to move the East
             Tennessee Technology Park (EITP) closer to a closure site by reducing the Management and Integration
             contractor role in operating utilities, a precedent that had already becn successfully set by the
             Department of Energy (DOE) Water Plant transfer. 'Ihesc actions made the ~ e p a n r n c nat customcr
             rather than a provider of such s m c c s .

             W e eithur concur or propose a qualified concurrcncc with your recofnincndatlons and request that you
             give our suggested modifications t o the recommendations serious consideration in order that w might
             proceed with actions that w11i enhance D




                                                               Managcr

             Attachments

             cc \+-/attachments:
             J. A. Meredith, AU-61,ORO
             J. S. Miller, FM-73, O R 0
             W. J. Biloski, BJC




Page 13                                                                                           Management Comments
                                                                                IG Report No.: DOE/IG-0609

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
    audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helphl?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name                                          Date

Telephone                                      Organization

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                    Office of Inspector General (IG- 1)
                                          Department of Energy
                                         Washington, DC 20585

                                       ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                          http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
